                          U.S. Department of Agriculture

                              Office of Inspector General
                     Administration and Finance Division




              Audit Report

Review of the Farm Service Agency’s Control
Over Contracting for the Disposal of Surplus
                 Tobacco


      Improved Policies and Procedures
      are Needed to Monitor Contracting
                  Activities




                                 Report No. 03099-03-Hq
                                            August 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20250-2316



DATE:

REPLY TO
ATTN OF:       03099-3-HQ

SUBJECT:      The Farm Service Agency’s Management and Control Over Contracting for the
              Disposal of Surplus Tobacco

TO:            James R. Little
               Administrator
               Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff


Attached is the final report presenting the results of our review of the Farm Service Agency’s
control over contracting for the disposal of surplus tobacco. Our review covered the procedures
employed in the acquisition planning, solicitation, award, monitoring, and termination of a
contract with Biomass Group, LLC. for the disposal of 121,448 tons of surplus tobacco.
Although Farm Service Agency (FSA) officials informed us that they relied on the guidance
contained in the Federal Acquisition Regulation (FAR), the level of diligence exhibited was not
sufficient for us to conclude that FSA adequately applied the FAR guidance to the subject
contract to safeguard the interests of the Government. Our review disclosed significant
weaknesses in administering the award process for the contract with Biomass with regard to
ensuring that the best method of disposal of the tobacco was employed, and in determining that
Biomass was a responsible contractor for this procurement.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation.
Please note that the regulation requires a management decision be reached on all findings and
recommendations within 6 months of report issuance.

We appreciate the cooperation and courtesies extended to us during our review.

/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit
Executive Summary
Review of the Farm Service Agency’s Management and Control over Contracting for
the Disposal of Surplus Tobacco (Audit Report No. 03099-03-Hq)

Results in Brief    Based on a Congressional request, we performed a review of the Farm
                    Service Agency’s (FSA) contracting procedures for the acquisition planning,
                    solicitation, awarding, monitoring, and termination of a contract with Biomass
                    Group, Limited Liability Corporation (LLC) (here-in-after referred to as
                    Biomass) for the disposal of 121,448 tons of surplus tobacco. Our audit
                    disclosed that the level of diligence exhibited was not sufficient for us to
                    conclude that FSA adequately applied the Federal Acquisition Regulation
                    (FAR) guidance to the subject contract to safeguard the interests of the
                    Government.

                    Our review disclosed significant weaknesses in administering the award
                    process for the contract with Biomass to ensure that the best method of
                    disposal of the tobacco was employed, and that Biomass was a responsible
                    contractor for this procurement. This occurred because FSA had not
                    prescribed or enforced adequate procedures and management controls. As a
                    result, the Government was unnecessarily exposed to potential losses as the
                    contractor was unable to perform in accordance with the terms and conditions
                    of the contract, and other measures had to be taken to complete the disposal of
                    the tobacco.

                    FSA did not demonstrate that it had performed a competent assessment of
                    Biomass’ ability to perform the work required to successfully complete the
                    contract. The Statement of Work associated with the contract required that
                    “Total destruction must be completed no later than 18 months after contract
                    award”, and that “Total destruction of the tobacco/cardboard shall only be
                    through burning for energy recovery.” In our opinion, this should have
                    required that (1) Biomass had a functioning facility within a sufficient time
                    frame to complete the scope of work, and (2) in order to convert the tobacco
                    to energy, Biomass would have to be able to market the electricity it
                    produced, otherwise there would have been no energy benefit from the
                    process. At the time of the award, Biomass’ certification as a competitive
                    retail electric service provider had already expired, and on March 6, 2003,
                    after receiving the award, Biomass allowed the Certification to be cancelled.
                    Therefore, Biomass would have been unable to market any electricity it
                    generated.

                    Biomass’ financial ability to perform under the terms and conditions of the
                    contract had not been determined. FSA was unable to show that Biomass had
                    a satisfactory record of past performance and business integrity and ethics.
                    Biomass submitted a bid that was less than one-fourth the amount of the next
                    lowest bidder determined by the Contracting Officer’s Technical

USDA/OIG-Audit No. 03099-03-Hq                                                                    i
                    Representative (COTR) to be technically capable, and even though Biomass
                    had no operational bio-mass processing facility, FSA deemed the bid to be
                    reasonable. Further, Biomass did not have the necessary Ohio-EPA permit to
                    legally perform under the contract. FSA ultimately cancelled the contract for
                    “convenience” after the State of Ohio Environmental Protection Agency
                    intervened and issued a determination that Biomass’ Installation Permit did
                    not authorize it to store and burn tobacco. Prior to this action, FSA had
                    shipped over 10 thousand tons of tobacco and cardboard containers to
                    Biomass and paid Biomass over $180 thousand. FSA, however, ultimately
                    paid to dispose of the tobacco not shipped to Biomass by burial in landfills.
                    Biomass paid to dispose of the tobacco it had received in the same manner.
                    The final cost of the disposal was nearly $1 million less than the estimated
                    cost of the contract with Biomass.

Recommendations
In Brief            We recommended that FSA formally prescribe an effective documented
                    planning process for researching options necessary to meet individual
                    procurement requirements prior to the solicitation of bids.           We also
                    recommended that FSA establish formal guidelines and requirements for the
                    conduct of past performance and pre-award reviews. These reviews need to
                    be sufficiently specific to ensure that a prospective contract award recipient
                    demonstrates either satisfactory prior performance of a scope of work similar
                    to the prospective contract, or that it has the legal, technical, and financial
                    capability to timely complete the contract.

                    We further recommended that FSA establish internal controls, such as review
                    criteria, for contracting officers responsible for determining whether
                    completed pre-award or past performance reviews of prospective contractors
                    have been competently performed, and whether the conclusions and
                    recommendations of the reviewer are adequately supported.

Agency
Responses           FSA responded that the selected disposal methodology on this procurement
                    was chosen based on the information ascertained using acceptable, but not
                    necessarily documented, research techniques. FSA further stated that they
                    believe adequate controls are in place using the existing personnel and
                    acquisition regulations. They stated that the FAR and Department of
                    Agriculture Acquisition Regulation provide formal guidance on the conduct
                    of pre-award and past performance reviews, and that formal, detailed, written
                    guidelines can’t be implemented to address every unique aspect of the
                    acquisition or other technical processes. FSA contended that any guideline
                    written to address pre-award reviews would be obsolete by the next time one
                    might possibly be required. In this particular acquisition, FSA stated that no
                    formal pre-award survey was required, as sufficient information had been
                    obtained to determine the contractor was responsible.


USDA/OIG-Audit No. 03099-03-Hq                                                                   ii
OIG
Position            The results of this contract provide convincing evidence in our view that
                    FSA’s planning process was inadequate in its content and application to
                    safeguard USDA’s interests. The contract files lacked documentation to
                    support the efforts of the COTR in determining how best to dispose of the
                    tobacco. The files lacked any support for how the determination was made,
                    what analysis was used to ensure that it provided the best value to the
                    government, or even that the untried method of tobacco disposal would be
                    effective.

                    Actions necessary to accept the agencies’ management decisions are provided
                    in the recommendation sections of the report. The agencies’ written response
                    is included as Exhibit B.




USDA/OIG-Audit No. 03099-03-Hq                                                               iii
Table of Contents
EXECUTIVE SUMMARY ........................................................................................................ i

TABLE OF CONTENTS........................................................................................................ iv

BACKGROUND AND OBJECTIVES.....................................................................................1

FINDINGS AND RECOMMENDATIONS ...............................................................................5
   Section 1. Management Oversight and Control............................................................5
         Finding 1: FSA’s Award Planning and Past Performance Review Methodology
         Lacked Adequate Management Control and Procedural Guidance ............................5
             Recommendation 1 ..............................................................................................21
             Recommendation 2 ..............................................................................................24
             Recommendation 3 ..............................................................................................27
             Recommendation 4 ..............................................................................................28
             Recommendation 5 ..............................................................................................30

SCOPE AND METHODOLOGY ..........................................................................................32

EXHIBIT A – Photographs of the Biomass Group’s South Point, Ohio Facility ....................33

EXHIBIT B – Response to the Draft Report from the Farm Service Agency .......................... 39




USDA/OIG-Audit No. 03099-03-Hq                                                                                               iv
Background and Objectives
Background
                    Section 844 of the Agriculture, Rural Development, Food and Drug
                    Administration, and Related Agencies Appropriation Act (Public Law 106-
                    387, enacted on October 28, 2000) as amended by Section 101 of the
                    Consolidated Appropriations Act (Public Law 106-554, enacted on December
                    21, 2000) provided that a producer owned cooperative marketing association
                    may fully settle a loan made for the 1999 crop of burley, flue cured, and cigar
                    binder tobaccos by forfeiting to the Commodity Credit Corporation (CCC) the
                    tobacco crop covered by the loan regardless of the condition of the tobacco.
                    The 1999 burley tobacco crop loans were made to the Burley Tobacco
                    Growers Cooperative Association in Lexington, Kentucky, and to the Burley
                    Stabilization Corporation in Knoxville, Tennessee. The 1999 crop of flue-
                    cured tobacco loans were made to the Flue-Cured Stabilization Corporation in
                    Raleigh, North Carolina. The cigar binder tobacco loans were made to the
                    Northern Wisconsin Cooperative Tobacco Pool, Inc. in Viroqua, Wisconsin.
                     CCC called the loans and acquired title to the 1999 tobacco crop effective on
                    May 1, 2001. The Contracting Officer’s Technical Representative (COTR),
                    who was a Farm Service Agency (FSA) tobacco division specialist, stated that
                    this was a break from past practice wherein the tobacco associations, rather
                    than CCC, took possession and disposed of the tobacco. The COTR also
                    stated that this was a far larger quantity than had ever been disposed of
                    before. The Office of Inspector General (OIG) was informed that a drought in
                    Kentucky and flooding in several southeastern States had reduced the quality
                    of the tobacco, harming its market value and precipitating the acquisition of
                    the tobacco by CCC through forfeiture in return for settling outstanding loans.
                    A total of 121,448 tons of tobacco was forfeited to CCC. This consisted of
                    80,802 tons of burley, 40,555 tons of flue-cured, and 91 tons of cigar binder
                    tobacco. Because of the forfeiture program, CCC was forced to store the
                    tobacco until it could be disposed of in a manner in which there was no
                    possibility that it could be recovered and illegally resold in the U. S. market.

                    On February 5, 2002, the Under Secretary for the Farm and Foreign
                    Agricultural Service approved two options to dispose of the tobacco. The
                    first option was to offer the CCC owned tobacco inventory for sale at U.S. list
                    prices for export use only, as the statute provided that “any tobacco forfeited
                    may not be sold for use in the United States.” On April 11, 2002, CCC
                    offered the CCC-owned tobacco inventory for sale, but no bids were received.
                    The second option allowed CCC to destroy the entire CCC-owned 1999 crop
                    of burley, flue-cured, and cigar binder tobacco. The process used by FSA to
                    determine how to dispose of the tobacco was not documented. Although there
                    was no documented requirement that any particular disposal process be
                    selected, FSA decided to destroy the tobacco through burning to produce
                    energy. Through interview, we determined that FSA selected this method by
                    making undocumented phone calls to several types of vendors and, through an

USDA/OIG-Audit No. 03099-03-Hq                                                                    1
                         undocumented analysis, determined burning to produce energy to be the best
                         approach. In November 2002, FSA (on CCC’s behalf) issued a solicitation to
                         various bio-mass companies to destroy the tobacco by burning for conversion
                         into energy. Seven bio-mass energy companies and one trading company
                         responded to the solicitation. After completing a technical evaluation of all
                         companies, Biomass was selected to receive the contract award based on its
                         low bid of $19.25 per ton of tobacco to be destroyed. The contract was
                         awarded on January 30, 2003. The estimated cost of this contract to the
                         Government was $2,337,874 to Biomass for the destruction of the tobacco
                         plus $2,789,330 in freight cost to deliver the tobacco to Biomass’ South Point,
                         Ohio facility, for a total cost of $5,127,204.

                         From March 11-14, 2003, in response to complaints received from citizens
                         and local governmental officials, the State of Ohio Environmental Protection
                         Agency (Ohio-EPA) conducted an inspection of Biomass’ South-Point, Ohio
                         site. Both the contractor and Ohio-EPA officials alerted FSA to Ohio-EPA’s
                         concerns about the storage and disposal of tobacco at the Biomass Group
                         facility. At this point, because Biomass had no operational facility, none of
                         the 10,181 tons of tobacco it had received had been destroyed. (We have
                         attached photographs, provided by Ohio-EPA, to this report as Exhibit A.
                         The photographs show piles of tobacco and stacks of unopened cardboard
                         tobacco containers stored in the open at the Biomass site. The photographs,
                         taken on March 12, 2003, July 9, 2003, and July 12, 2004, also show a facility
                         overgrown with weeds that has no apparent construction or renovation
                         activity in progress.) The Ohio–EPA inspector reported that Biomass was in
                         violation of Chapter 3734.03 of the Ohio Revised Code (ORC) and Chapters
                         3745-27-05(C) and 3745-37-01(A) of the Ohio Administrative Code as
                         Biomass did not have a license or permit for the transfer or disposal of solid
                         waste. 1 FSA suspended shipments of tobacco to Biomass and amended the
                         contract on March 25, 2003 to incorporate a stop work order effective March
                         14, 2003. The stop work order directed that “The contractor and all
                         subcontractors shall cease performance on all remaining work under this
                         contract and is directed to minimize costs associated with this effort effective
                         immediately. The stop work order will remain in effect until the issue with
                         the Ohio Environmental Protection Agency concerning proceeding as a
                         ‘waste to energy’ program or a ‘solid waste’ program is resolved. This action
                         shall remain in place until further notice.” On March 27, 2003, Biomass
                         Group, LLC was formally notified by the OHIO-EPA by certified mail that it
                         was in violation of its permit by receiving and storing a solid waste in the
                         form of tobacco and cardboard tobacco containers.

                         On April 29, 2003, FSA requested the Office of General Counsel (OGC) to
                         conduct a review of a proposed termination for cause for the contract with

1
 ORC Section 3734.03 states: “No person shall dispose of solid wastes by open dumping or open burning.”
OAC Rule 3745-27-05 states: “No person shall conduct, permit, or allow open dumping.” OAC Rule 3745-37-
01 states: “No person shall conduct solid waste operation without a valid license.”

USDA/OIG-Audit No. 03099-03-Hq                                                                            2
                    Biomass. On May 19, 2003, OGC recommended that FSA first issue a cure
                    notice (instructing Biomass as to what it must do to correct current
                    deficiencies in its performance under the FSA contract) to Biomass, and
                    failing effective cure, terminate the contract for cause based on Biomass’
                    failure to comply with the contract’s terms and conditions. FSA issued the
                    cure notice to Biomass on May 22, 2003, but then terminated the contract not
                    for cause, as recommended by OGC, but for the convenience of the
                    Government effective June 12, 2003 in accordance with FAR 52.212-4. When
                    asked why the OGC recommendation was not followed, FSA responded that
                    terminating for convenience was the better approach, as the contractor had
                    agreed to dispose of the tobacco it had received at no additional cost to the
                    government, and terminating for convenience would avoid the potential cost
                    and time required to work through contractor appeals which would likely
                    follow a termination for cause.

                    Termination for convenience, rather than for cause, however, impedes the
                    Government’s ability to seek damages for a contractor’s nonperformance.
                    FAR 52.212-4 (l) states: “The Government reserves the right to terminate this
                    Contract, or any part hereof for its sole convenience. In the event of such
                    termination, the contractor shall immediately stop all work hereunder and
                    shall immediately cause any and all of its suppliers and subcontractors to
                    cease work. Subject to the terms of this contract, the contractor shall be paid
                    a percentage of the contract price reflecting the percentage of work performed
                    prior to the notice of termination, plus reasonable charges the contractor can
                    demonstrate to the satisfaction of the Government using its standard record
                    keeping system, have resulted from the termination. The Contractor shall not
                    be required to comply with the cost accounting standards for contract cost
                    principles for this purpose. This paragraph does not give the Government
                    any right to audit the Contractor’s records (emphasis added). The
                    Contractor shall not be paid for any work performed or costs incurred which
                    reasonably could have been avoided.”

                    On May 30, 2003, Ohio-EPA issued its “Director’s Final Findings and
                    Orders”, which required that all tobacco be removed from the Biomass site
                    within 60 days of the date of the order (July 29, 2003).

                    Ultimately, the tobacco was disposed of in several landfills under existing
                    servicing agreements between the CCC and several Tobacco Associations.
                    The final cost of disposing of the portion of the tobacco not delivered to
                    Biomass was $3,565,059. If the transportation cost of $384,718 and $181,585
                    payment to Biomass for the tobacco it received is included, then the total cost
                    of the tobacco disposal equals $4,131,362, or $995,842 less than the
                    anticipated cost of the original award to Biomass.

                    The COTR reported that, as of December 19, 2003, the entire CCC inventory
                    of tobacco had been crushed and mixed with other wastes (to make it
                    unusable) and buried in landfills.

USDA/OIG-Audit No. 03099-03-Hq                                                                   3
Objectives           The objectives of our review were to determine whether the award,
                     monitoring, and disposition of the contract with Biomass by FSA were in
                     compliance with applicable laws and regulations, and specifically, that due
                     diligence was performed to protect the Government’s interests.




USDA/OIG-Audit No. 03099-03-Hq                                                                4
Findings and Recommendations
Section 1. Management Oversight and Control

Finding 1           FSA’s Award Planning and Past Performance Review
                    Methodology Lacked Adequate Management Control and
                    Procedural Guidance

                    Selection Process for Tobacco Disposal Methodology Was Not Documented

                    The method selected by FSA to dispose of the tobacco was not the most
                    economically sound and the research employed in making the selection was
                    not supported by documentary evidence. We attributed this condition to an
                    overall lack of management control to ensure that due diligence was applied
                    in the contracting process for this contract.     This lack of control was
                    evidenced by an absence of documentation to support the actions taken and
                    determinations made, and by an absence of detailed written procedures and
                    controls necessary to properly govern this activity. The disposal method
                    selected (burning to produce electricity) was more costly than the alternative
                    ultimately employed (disposal in landfills) and its viability for tobacco had
                    not been established.

                    Although the need to dispose of such a large quantity of tobacco was a
                    precedent-setting event, (The COTR stated that in his 14 years of experience,
                    CCC had never taken possession nor had to dispose of surplus tobacco.) FSA
                    should have had procedures in place to ensure that it was prepared to address
                    any unique contracting needs that might arise. This apparently was not the
                    case. When FSA was charged with obtaining a vendor to dispose of the
                    tobacco, it had neither the experience nor sufficient documented procedures in
                    place to provide guidance on how to determine the most appropriate way to
                    carry out this new contracting requirement. FSA had no procedures in place
                    to guide its personnel in determining what documentation was needed to
                    support the research and analysis performed, the conclusions reached, and the
                    review and final selection of the most cost effective and efficient
                    methodology to employ to dispose of the surplus tobacco. Internal controls
                    over the methodology of the selection process, such as supervisory or second
                    party reviews, were not in evidence, and as a result, the decision to burn the
                    tobacco to produce energy, which committed Government resources, went
                    unchallenged. When we asked in interview as to how the decision was made
                    to dispose of the tobacco by burning to produce electricity, the COTR
                    informed us that he made a few telephone calls (none of which were
                    documented) to inquire about disposal options, and ultimately spoke with an
                    individual (whose name and title could not be recalled) who had experienced
                    success in disposing of soybeans through conversion to energy. Even though
                    the COTR stated that he had no prior experience with the burning–to-produce
                    energy process, and was unaware of it ever being used for tobacco, it was
                    recommended as the disposal method to be employed. We asked if there was


USDA/OIG-Audit No. 03099-03-Hq                                                                  5
                    documentation of any analysis performed of alternatives to support the
                    selection of this method, and were told that it was not a formal documented
                    process.

                    The fact that it cost the Government nearly $1 million less to dispose of the
                    excess tobacco in landfills (after the contract with Biomass was terminated)
                    versus the original decision to burn the tobacco to produce energy points out
                    that better planning was needed for this award. The contract with Biomass
                    Group, LLC, if successfully completed, was projected to cost a total of
                    $5,127,204 ($2,337,874 to Biomass and $2,789,330 for transportation paid by
                    USDA). The potential negative impact of the inadequate planning for
                    this contract award is punctuated by the fact that had Biomass not bid on
                    the contract, and had it then been awarded to the next lowest technically
                    capable bidder, if funded, that award would have cost USDA
                    $14,168,512. This would have been $10,037,150 more than the $4,131,362
                    cost ultimately incurred by disposing of the tobacco in landfills.

                    We concluded that the seemingly arbitrary manner in which the disposal
                    method was selected did not constitute due diligence. Further, we do not
                    believe that the Contracting Officer, in failing to ensure that a competent
                    documented planning process was employed to determine the best manner to
                    dispose of the surplus tobacco, complied with the spirit of the FAR. Part
                    1.602-2 of the FAR places responsibility on the Contracting Officers for the
                    performance of all necessary actions for effective contracting, ensuring
                    compliance with the terms of the contract, and safeguarding the interests of
                    the United States in its contractual relationships.

                    Past Performance/Pre-Award       Review    Methodology    Lacks    Sufficient
                    Guidance and Controls

                    FSA selected a contractor to dispose of the surplus tobacco who was
                    incapable of performing under the terms and conditions of the contract. This
                    was due to the absence of necessary prescribed guidance and supervisory
                    review criteria over the past performance/pre-award review process. As a
                    result, the Government was put at risk. FSA had not prescribed specific
                    minimum procedures to be performed in order to (1) perform a competent
                    past-performance assessment or determine that a pre-award review was
                    necessary, and (2) assess the review results to determine that the contractor
                    was responsible. This resulted in the conduct of an inadequate review, and
                    produced an incorrect determination that Biomass was responsible.

                    The FAR does not provide specific guidance on when past performance and
                    pre-award reviews are required, or on how they should be conducted, but it
                    does provide minimum requirements in order for a contractor to be deemed
                    responsible. Applicable FAR guidance is quoted below.



USDA/OIG-Audit No. 03099-03-Hq                                                                 6
                    FAR 9.103 “Policy.” states: “(a) Purchases shall be made from, and contracts
                    shall be awarded to, responsible prospective contractors only. (b) No
                    purchase or award shall be made unless the contracting officer makes an
                    affirmative determination of responsibility. . . (c) The award of a contract to a
                    supplier based on the lowest evaluated price alone can be false economy if
                    there is subsequent default, late deliveries, or other unsatisfactory
                    performance resulting in additional contractual or administrative costs…A
                    prospective contractor must affirmatively demonstrate its responsibility
                    (emphasis added) . . .”

                    FAR 9.104-1 ”General Standards.” states: “To be determined responsible, a
                    prospective contractor must-

                    (a)   Have adequate financial resources to perform the contract, or the ability
                          to obtain them. . . (See 9.104-3(a).
                    (b)   Be able to comply with the required or proposed delivery or
                          performance schedule. . .
                    (c)   Have a satisfactory performance record. . . A prospective contractor
                          shall not be determined responsible or nonresponsible solely on the
                          basis of a lack of relevant performance history. (FAR 15.305(a)(2)(iv)
                          states: “In the case of an offeror without a record of relevant past
                          performance or for whom information on past performance is not
                          available, the offeror may not be evaluated favorably or unfavorably on
                          past performance).
                    (d)   Have a satisfactory record of integrity and business ethics.
                    (e)   Have the necessary organization, experience, accounting and operations
                          controls, and technical skills, or the ability to obtain them. . . (See
                          9.104-3(a)).
                    (f)   Have the necessary production, construction, and technical equipment
                          and facilities or the ability to obtain them. . . (See 9.104-3(a)).
                    (g)   Be otherwise qualified and eligible to receive an award under
                          applicable laws and regulations.”

                    FAR 9.104-3 “Application of Standards” states:

                    (a)    Ability to obtain resources. Except to the extent that a prospective
                           contractor has sufficient resources or proposes to perform the contract
                           by subcontracting, the contracting officer share require acceptable
                           evidence of the prospective contractor’s ability to obtain required
                           resources. . . Acceptable evidence normally consists of a commitment
                           or explicit arrangement, that will be in existence at the time of the
                          contract award, to rent, purchase, or otherwise acquire the needed
                          facilities, equipment, other resources, or personnel.




USDA/OIG-Audit No. 03099-03-Hq                                                                     7
                    FAR 9.105-1 “Obtaining information.” states:

                    (a)   “Before making a determination of responsibility, the contracting
                          officer shall possess or obtain information sufficient to be satisfied
                          that a prospective contractor currently meets the applicable
                          standards in 9.104” (emphasis added).
                    (b)   “(1) Generally, the contracting officer shall obtain information
                          regarding the responsibility of prospective contractors, including
                          requesting pre-award surveys when necessary (see 9.106), promptly
                          after a bid opening or receipt of offers. (2) Preaward surveys shall be
                          managed and conducted by the surveying activity. (3) Information on
                          financial resources and performance capability shall be obtained or
                          updated on as current a basis as is feasible up to the date of the award.”

                    FAR 9.106-1 states: “A pre-award survey is normally required only when the
                    information on hand or readily available to the contracting officer, including
                    information from commercial sources, is not sufficient to make a
                    determination regarding responsibility.”

                    FAR 15.302 describes the source selection objective – “The objective of
                    source selection is to select the proposal that represents the best value.
                    Similarly, FAR 15.303 establishes source selection responsibilities and notes
                    that:

                    (a)   Agency heads are responsible for source selection. The contracting
                          officer is designated as the source selection authority, unless the agency
                          head appoints another individual . . .
                    (b)   The source selection authority shall (1) Establish an evaluation team,
                          tailored for the particular acquisition, that includes appropriate
                          contracting, legal, logistics, technical, and other expertise to ensure a
                          comprehensive evaluation of offers; (2) Approve the source selection
                          strategy or acquisition plan, if applicable, before solicitation release; (3)
                          Ensure consistency among the solicitation requirement, notices to
                          offerors, proposal preparation instructions, evaluation factors and
                          subfactors, solicitation provisions or contract clauses, and data
                          requirements; (4) Ensure that proposals are evaluated based solely on
                          the factors and subfactors contained in the solicitation. . .; (5) Consider
                          the recommendations of advisory boards or panels (if any); and (6)
                          Select the source or sources whose proposal is the best value to the
                          Government.”

                    Inadequate Review of Proposed Contractor Prior to Award

                    FSA initially determined that it did not need to conduct a past performance
                    review because it reasoned that the Environmental Protection Agency (EPA)
                    must have done so in order for any of the bidders on this contract to be


USDA/OIG-Audit No. 03099-03-Hq                                                                       8
                             considered biomass companies.2 A memo in the contract file signed by the
                             COTR and the contracting officer on November 26, 2002 states: “As per
                             FAR 15.304 (C) (3) (iv) past performance will not need to be evaluated.
                             (FAR 15.304 (C) (3) (iv) states: “Past performance need not be evaluated if
                             the contracting officer documents the reason past performance is not an
                             appropriate evaluation factor for the acquisition.”) This determination is made
                             as Environment [sic] Protection Agency (EPA) must certify Bio-Mass [sic]
                             companies that destroy waste. Tobacco is considered a solid waste
                             (emphasis added) that can only be processed for destruction by a bio-Mass
                             [sic] Company. Since the companies capable of this requirement have already
                             been screened for compliance by EPA, this will not be an additional
                             requirement that USDA will address.”

                             We noted that the contract files did not contain any evidence obtained directly
                             from the national EPA, nor did it cite EPA regulations that supported the
                             conclusions that the national EPA’s actions were sufficient in lieu of
                             performing a pre-award review. Subsequently, FSA reversed itself on this
                             determination and performed a past performance review and a site visit to
                             Biomass’ South Point, Ohio facility, in January 2003 (the contract files did
                             not explain why the reconsideration was made). A later document,
                             “Recommendation for Award, Destruction of Tobacco, Solicitation No. FSA-
                             R-003-04DC, Contract No. 53-3151-3-0004” states “A past performance
                             check was made by the Tobacco and Peanut Division (TPD) [performed by
                             the COTR] on the recommended contractor, Biomass Group, LLC. Biomass
                             Group LLC [sic] has received an Air Permit from the Ohio Environmental
                             Protection Agency. [We noted, however, that the permit, was an installation
                             permit only, and did not authorize the storage and burning of tobacco, as was
                             ultimately determined by Ohio-EPA.] Bio-mass material can only be
                             processed for destruction by a bio-mass company (emphasis added). [We
                             noted that in the early stages of the award, FSA used the words solid waste
                             and bio-mass interchangeably to describe the tobacco as evidenced in this
                             document and the document describing the EPA requirements above.] The
                             TPD [COTR] also contacted two other sources familiar with the offeror’s
                             performance. [We noted, however, that these individuals were advisors to
                             Biomass, and, lacking an arms length association with Biomass, their
                             statements of assurance did not evidence an appearance of independence].
                             Based on the information received by the TPD [COTR] and the site survey,
                             the recommended offeror has a satisfactory record of past performance.”

                             The above recommendation for award concluded that the offeror had a
                             satisfactory record of past performance, even though FSA had no documented
                             evidence to show that Biomass or its President had ever successfully operated
                             a bio-mass to energy conversion facility, or could in the future. In our
                             opinion, the conclusion was not adequately supported.

2
  The COTR had stated that biomass companies were selected because a contact (whose name could not be recalled) had
indicated that a contract for disposal of soybeans through conversion to energy by a biomass company had been successful.

USDA/OIG-Audit No. 03099-03-Hq                                                                                          9
                    Criteria for Determining the Capability of Proposed Contractor Were Not
                    Followed

                    “Factors” included by FSA in the contracting file as necessary support for a
                    determination of technical competence were not followed. An undated memo
                    from the COTR to the Contracting Specialist described the “factors” to be
                    applied in determining the “Capability of vendors to receive the solicitation to
                    provide 100 % total destruction of the 1999 crop (sic.) Government owned
                    tobacco inventory” as the following:

                    •   “The amount of material that can be burned in a day.
                    •   Can they provide the amount of security I need.
                    •   Are their permits in place to burn waste?
                    •   Their capability to destroy tobacco in 18 months.”

                    In OIG’s opinion based the requirements of FAR 9.104-1, quoted above, and
                    on FSA’s own “factors”, the COTR’s on-site review at the Biomass facility in
                    South Point, Ohio did not provide the information needed to make a
                    supportable determination that Biomass was a responsible contractor. In
                    interviews with the COTR and Contracting Officer in December 2003 and
                    January 2004, we were informed that the COTR met with the president of
                    Biomass and two of his advisors in January 2003. The COTR provided the
                    Contracting Officer with a memorandum describing his site visit, and
                    concluding that Biomass was responsible to carry out the contract. The FSA
                    Contracting Officer, upon review of the information provided by the COTR,
                    agreed with this determination (In interview, he stated that he relied on the
                    COTRs’ expertise with tobacco in making his determination) and
                    recommended that the contract be awarded to Biomass.

                    The COTR stated that at the time he toured the facility there was no evidence
                    of any construction in progress. He described the site as containing a large
                    building housing seven boilers and several smaller outbuildings. The only
                    activity noted by the COTR was some cleanup of trash and brush. The
                    conclusion of the COTR in a January 10, 2003 memo, nonetheless, states: “It
                    appears that this company is more than capable of complying with our
                    solicitation.” (emphasis added). The memo did not explain how a contractor
                    that had not even started construction on its conversion of an old non-
                    operational ethanol processing plant to an energy conversion plant for
                    biomass could be assessed on the amount of material that could be burned in a
                    day, or the capability to destroy all of the tobacco within 18 months of the
                    date of the contract award, as is required by the contract’s statement of work.
                    Current information and photographs of the Bio-Mass South Point, Ohio
                    facility, obtained from Ohio-EPA officials, shows that Biomass Group has not
                    begun construction of the modifications necessary to become a functioning
                    bio-mass plant as of July 2004. Further, publicly available information,


USDA/OIG-Audit No. 03099-03-Hq                                                                   10
                    obtained from the website of the Ohio Public Utilities Commission (Case No.
                    00-2337-EL-CRS) and confirmed by telephone conversation, shows that
                    Biomass’ Certificate as a Competitive Retail Electric Service Provider
                    (Certificate No. 01-046 (1)) expired on January 1, 2003, and has not been
                    renewed to the current date. Thus, even if Biomass had possessed an
                    operational facility on the date of the contract award, January 30, 2003, it
                    would not have had the legal authority to market the electricity it would have
                    generated.

                    When asked what information lead the COTR to conclude that Biomass
                    would be able to perform under the contract, the COTR replied that he relied
                    upon the character and experience of Biomass’ President as supported by
                    statements provided by two of his advisors. The advisors consisted of a
                    member of a Kentucky based financial services organization and a
                    representative of a consulting service specializing in energy production and
                    distribution. The COTR stated that inquiries were not made as to what
                    specific business or personal relationships the two individuals or their firms
                    may have had with Biomass or its President. The COTR stated that the
                    individuals were only referred to as advisors to Biomass. This infers,
                    nonetheless, that some compensated business arrangement might have
                    existed, and if that were the case, would taint the reliability of any support
                    they might have offered regarding Biomass and its president. When asked
                    whether independent verification of Biomass’ financial and technical ability
                    to perform had been sought, the COTR replied that except for an inconclusive
                    Dun and Bradstreet (D&B) report, the answer was no. FAR 9.103 provides a
                    “Contractor Qualifications Policy” for Contracting Officers, which states: “(a)
                    Purchases shall be made from and contracts shall be awarded to, responsible
                    prospective contractors only”, and “(b) No purchase or award shall be
                    made unless the contracting officer makes an affirmative determination
                    of responsibility. In the absence of information clearly indicating that the
                    prospective contractor is responsible, the contracting officer shall make a
                    determination of non-responsibility (emphasis added).” We do not believe
                    that a physical inspection of a nonfunctioning facility and interviews with
                    individuals who may not have been independent of the bidder support the
                    conclusion reached by FSA that Biomass Group was responsible.

                    Proposed Contractor’s Financial Ability to Perform

                    Biomass’ financial ability to perform under the terms and conditions of the
                    contract as required by FAR 9.104-1 were not determined. FAR 9.104-1(a)
                    states: To be determined responsible, a prospective contractor must have
                    adequate financial resources to perform the contract, or the ability to obtain
                    them. FAR 9.104-3(a) “Ability to obtain resources.” states: “Except to the
                    extent that a prospective contractor has sufficient resources or proposes to
                    perform the contract by subcontracting, the contracting officer shall require
                    acceptable evidence of the prospective contractor’s ability to obtain required
                    resources . . . . Acceptable evidence normally consists of a commitment or

USDA/OIG-Audit No. 03099-03-Hq                                                                  11
                                explicit arrangement that will be in existence at the time of contract award to
                                rent, purchase, or otherwise acquire the needed facilities, equipment, or other
                                resources or personnel . . ..”

                                An April 2, 2003 letter from Biomass’ attorney to Ohio-EPA stated that
                                Biomass had expended in excess of $13 million in developing the South
                                Point, Ohio plant, and that final construction and development costs were
                                expected to exceed $108 million. With such a substantial sum necessary to
                                renovate the facility to be able to perform under the FSA contract, and having
                                evidenced no construction activity at the site, due diligence and the FAR
                                dictate that in order to determine Biomass’ capability to perform, a review of
                                documents such as construction agreements, timetables, and independently
                                supportable evidence of financial ability would be advisable. This was not
                                done, nor were such documents requested per the COTR.

                                Three sources of information, detailed below, relating to financial capability
                                were addressed in the contract files and in FSA’s responses to OIG’s
                                questions. However, none of these sources provided competent evidence, in
                                our judgment, individually or in the aggregate, of Biomass’ ability to perform.

                                The COTR stated that in evaluating Biomass’ financial standing, FSA
                                obtained a D&B report. We reviewed the copy of the D&B report that was in
                                the contract file. We noted that the report, dated January 17, 2003, stated:
                                “The DS indicator assigned to this business means that the limited
                                information currently in the D&B file does not allow us to classify it within
                                our rating systems. 3 We are providing this information in the interest of
                                speed. Because management may have not been interviewed, this information
                                should not be considered a statement of existing facts. We are currently
                                investigating further, and an updated report will be sent to you shortly.” FSA
                                contracting personnel were unable to verify whether they received the noted
                                update to the D&B report, and it was not available in the contract file. Thus,
                                this report did not provide any useful information for assessing Biomass’
                                financial standing. A November 25, 2003 response from the Chief, FSA
                                Audits, Investigations, and State and County Review Branch, to questions
                                submitted by OIG stated that FSA determined that Biomass was not on the
                                “List of Parties Excluded from Federal Procurement and Non-procurement
                                Programs.” This check was not documented in the contract files, except by a
                                brief notation that it had been performed and Biomass was not on the list.
                                Further, this check only indicates that Biomass has not been determined as
                                non-responsible on some other Federal procurement. It should not be viewed
                                as a positive affirmation that Biomass is a responsible contractor.

                                Another FSA response noted: “It was also stated by Biomass that the
                                Biomass group has a net worth of over 100 million dollars.”      This
                                information, based on statements by Biomass’ president per the COTR,

3
    The DS indicator is used to assign a credit worthiness rating to an entity being assessed by D&B.

USDA/OIG-Audit No. 03099-03-Hq                                                                              12
                    provided no assurance, in our view, of Biomass’ financial condition as it was
                    not supported by any independently reliable source such as audited financial
                    statements, tax records, or confirmations from financial institutions.

                    We reviewed Biomass’ December 1, 2000 Application for Certification as
                    Retail Generation Provider. This was the most recent information we could
                    obtain on Biomass’ financial status, and is available on the internet as stated
                    above. In this document we noted that Biomass Group, LLC might consist
                    only of one individual, its president. The COTR and Contracting officer were
                    unable to provide a list of the names of the members of Biomass Group, and
                    the above document, on page No.1, states that the current President of
                    Biomass purchased the interest of all of the other members on August 9,
                    2000, and is the sole member (emphasis added).

                    The document also states in Section 2.01 “The member [president of
                    Biomass] has contributed $100 to the capital of the Company in exchange
                    for a 100 percent interest in the Company. It further states in Section
                    2.02 “The Member shall not have any personal liability for the liabilities
                    or obligations of the Company except to the extent of its capital
                    contribution set forth in Section 2.01 and the Member shall not be
                    required to make any additional capital contributions to the Company.”
                    Under Exhibit C-6 of the document “Credit Rating” Biomass’s president
                    has attested to “None” (emphasis added). Thus, if indeed Biomass had only
                    one member, and that member did not have any requirement to personally
                    ensure that Biomass was adequately funded, it became even more critical to
                    gain assurance that Biomass had sufficient financing to construct the needed
                    facilities to become operational.

                    We also noted that the document contains an unaudited balance sheet for
                    Biomass as of September 30, 2000. The balance sheet presented Biomass’ net
                    worth at that date as $36,475,000. However, $35,000,000 of this amount was
                    listed as the value of the plant and equipment, and $5,000,000 was the value
                    of its power purchase agreement permits. These figures are estimates and it
                    is unknown whether the plant and equipment (last operated as and ethanol
                    processing plant in 1995) could be sold or used as security for financing for
                    the value stated.       Additionally, as Biomass had no certification as a
                    competitive retail electric service provider, the $5,000,000 related to this asset
                    is also questionable. Thus, if liquidated, it is possible that Biomass could
                    have no real net worth.         As this information is dated and unaudited,
                    Biomass’s current financial standing is unknown. However, the above
                    information was, and is currently, available on the internet, and it should have
                    been considered by FSA in making a determination as to the responsibility of
                    this contractor, and should have reinforced the need to adhere to the FAR and
                    obtain reliable information as to Biomass’ financial capability.




USDA/OIG-Audit No. 03099-03-Hq                                                                     13
                    Biomass’ Technical Ability to Perform Was Not Determined

                    FSA did not demonstrate that they had performed a competent assessment of
                    Biomass’ ability to perform the work required to successfully complete the
                    contract. The contract’s statement of work required that “Total destruction
                    must be completed no later than 18 months after contract award”, and that
                    “Total destruction of the tobacco/cardboard shall only be through burning for
                    energy recovery.” In OIG’s opinion, this should have required that (1)
                    Biomass had a functioning facility within a sufficient time frame to complete
                    the scope of work, and (2) in order to convert the tobacco to energy, Biomass
                    would have to be able to market the electricity it produced, otherwise there
                    would have been no energy benefit from the process. We already noted above
                    that at the time of the award, Biomass’ certification as a competitive retail
                    electric service provider had expired, and on March 6, 2003, after receiving
                    the award, Biomass allowed the certification to be cancelled. Although we
                    cannot estimate how long it would have taken for Biomass to reapply and be
                    recertified, this did not bode well for the success of a company that had just
                    signed a contract to burn tobacco to produce energy. It is inexplicable in our
                    view why a company which signed a contract to produce electricity from
                    burning tobacco in January, the same month it was notified that it’s
                    certification had expired, would not have taken immediate action to avoid
                    having its certification cancelled in March. This is particularly curious, in
                    that Biomass had represented in its financial statements that $5,000,000 of its
                    net worth was from the value of its power purchase agreement permits.

                    Additionally, evaluation “factors” FSA placed within the contract file include
                    “The amount of material that can be burned in a day, and “Their capability to
                    destroy tobacco in 18 months.”

                    FAR 9.104-1”General Standards.” states: “To be determined responsible, a
                    prospective contractor must: (b) be able to comply with the required or
                    proposed delivery or performance schedule. . . (e) have the necessary
                    organization, experience, accounting and operations controls, and technical
                    skills, or the ability to obtain them. . . (f) have the necessary production,
                    construction, and technical equipment and facilities or the ability to obtain
                    them. . .”

                    It is difficult to understand, after ascertaining during the site visit that the
                    plant was not operational and that there was no evidence of construction
                    either planned (from viewing contract documents or plans for construction or
                    construction schedules) or in process, how FSA determined that Biomass
                    would have its plant operating and could complete the burning of the tobacco
                    to produce energy within 18 months of the date of the award.

                    Other than the verbal assurances provided to the COTR by the president of
                    Biomass, and his technical advisors, FSA has indicated that it relied on the
                    president’s past experience in operating a power plant that had employed 50

USDA/OIG-Audit No. 03099-03-Hq                                                                   14
                    people since 1997. FSA states that it obtained this assurance from the Dun
                    and Bradstreet Report. We reviewed the report and noted that the report
                    states that its information “SHOULD NOT BE TAKEN AS A STATEMENT
                    OF FACTS,” and that the record in the report was created at the request of the
                    Biomass president. Therefore, we do not have any assurance as to its
                    reliability. The report tells us, in the “Public Filings” section, that Biomass
                    Group made a Corporate or Business filing on November 11, 1997. The data
                    in the report also contains a warning “The information in the “Payments” and
                    “Public Filings” and other sections when present, may not relate to this
                    business due to possible changes in ownership, control, or legal status since
                    the data was collected.” As the specific source of the data was not known and
                    there was no assurance as to its accuracy, and Dun and Bradstreet had warned
                    that it might not be accurate, in our opinion, it provided no reliable
                    information on Biomass’s business history. Further, there was no assurance
                    as to whether (1) the referenced power plant was a biomass to energy
                    conversion plant, (2) it was currently in operation, and (3) was being operated
                    successfully.

                    Further, OIG obtained information indicating that the referenced power
                    plant may not exist, or if it ever existed, has ceased operations. By
                    referencing the application submitted by Biomass, and it’s only member of
                    record at the time, its president, to the Ohio Public Utilities Commission, we
                    note the following statements attested to by the Biomass President. On page
                    No. 1 of the document we note that under Section 1.01, “Formation”, it states:
                    “On November 4, 1997, [proper name redacted] [The Biomass president] as
                    Organizer, duly executed and filed Articles of Organization with the
                    Kentucky Secretary of State forming a member managed limited liability
                    company. . .” On page 7 of the application document in Exhibit B-1
                    Biomass’ president attested “Biomass’ Ohio site is the first and only
                    generating facility for the Company. Biomass is not licensed or
                    certificated in any other jurisdiction (emphasis added).” On page 8 of the
                    application document in Exhibit B-2 under “Experience in providing service:
                    Biomass’ president attests: “As a start up operation, Biomass Group, LLC
                    has no experience in either electric generation, nor in electric services
                    sales. Biomass owns the current coal fired generator, which is not
                    operable at this time, and the land and road/potential barge site
                    (emphasis added).        Biomass has contracted with consultants who are
                    addressing the conversion requirements and has begun the environmental
                    permitting process necessary to obtain the required permits to install and
                    permits to operate a biomass fired generation station.”

                    The application document quoted from above, was filed with the State of
                    Ohio on November 29, 2000, and the attestation accompanying the filing by
                    Biomass’ president stated in part: “The applicant herein, attests under penalty
                    of false statement that all statements made in the application for certification
                    are true and complete, and that it will amend its application while the
                    application is pending if any substantial changes occur regarding the

USDA/OIG-Audit No. 03099-03-Hq                                                                   15
                    information provided in the application.” The now cancelled certificate as a
                    competitive retail electric service provider was approved on January 1, 2001
                    without out amendment of any of the above quoted information.

                    Telephone calls to the States of Ohio and Kentucky Public Utilities
                    Commissions and their respective Environmental Protection Agencies failed
                    to unearth any record of Biomass having ever operated a power plant or
                    obtaining an Air Permit, other than for the nonfunctional South Point, Ohio
                    facility.

                    With regard to FAR 9.104-1(e), described above: During the site visit, the
                    COTR met with and obtained references for the president of Biomass from
                    two individuals described as advisors. One individual acted as a financial
                    advisor, and the other was a technical advisor on power plants. In so far as
                    Biomass continues these associations, they could provide technical expertise,
                    however, the COTR obtained no specific information as to precisely what
                    level of assistance they were providing now and what was contemplated in the
                    future.

                    Based on the above, we conclude that the work performed and documented by
                    the FSA contracting personnel does not meet the requirements of FAR 9.104-
                    1(b), or its own evaluation factors, necessary to determine this contractor
                    responsible.

                    Satisfactory Past Performance and Business Integrity Records Were Not
                    Determined

                    FSA was unable to show that Biomass had a satisfactory record of past
                    performance and business integrity and ethics.

                    FAR 9.104-1(c) states: “To be determined responsible, a prospective
                    contractor must have a satisfactory performance record. . . A prospective
                    contractor shall not be determined responsible or nonresponsible solely on the
                    basis of a lack of relevant performance history. (FAR 15.305(a)(2)(iv) states:
                    “In the case of an offeror without a record of relevant past performance or for
                    whom information on past performance is not available, the offeror may not
                    be evaluated favorably or unfavorably on past performance).”

                    As discussed above, the check FSA made of the D&B report was
                    inconclusive, and the check of the “List of Parties Excluded from Federal
                    Procurement and Non-procurement Programs” only indicated that Biomass
                    had not been determined as non-responsible on some other Federal
                    procurement. As FSA had no record of any contracting experience with
                    Biomass, and the company’s prior experience as a power producer, if any, is
                    questionable, no assurance was available to use past performance as an
                    indicator of Biomass’ potential to be a responsible contractor.


USDA/OIG-Audit No. 03099-03-Hq                                                                  16
                    FAR 9.104-1(d) states: “To be determined responsible, a prospective
                    contractor must have a satisfactory record of integrity and business ethics.
                    FSA has not provided any significant information useful in determining the
                    status of Biomass’ business integrity and ethics. References were provided by
                    two of Biomass’ advisors, but as the advisors were working with Biomass,
                    and may have been compensated or had other business inducements that may
                    have impaired their ability to provide completely impartial assessments their
                    opinions do not carry the same level of assurance as would be obtained from
                    individuals independent to Biomass. Therefore, we believe these references
                    provided insufficient assurance upon which to base an assessment of
                    responsibility.

                    Biomass’ Unreasonably Low Bid Was Accepted Without Question

                    Biomass submitted a bid that was less than one-fourth the amount of the next
                    lowest bidder determined by the COTR to be technically capable, and even
                    though Biomass had no operational bio-mass processing facility, FSA deemed
                    the bid to be reasonable. In a January 15, 2003 technical evaluation, the very
                    low cost of Biomass’ bid for disposal of the tobacco, as compared to the next
                    lowest bidder ($19.25 per ton versus $85.00 per ton) was explained by the
                    contracting officer as follows: The explanation FSA provided to justify
                    Biomass’ low bid states:

                    “Tobacco is not normally a product to be used as bio-mass waste to burn for
                    energy recovery. The bio-mass energy companies are dealing with a new
                    waste product to convert to energy. Because we are dealing with tobacco as a
                    waste, some of the companies are going to be more conservative. The main
                    reasons for such a price spread are that some of the offerors already have the
                    infrastructure in place to receive and store this tobacco without any additional
                    construction just for this project. Other offerors would have to build
                    unloading ramps, add conveyor belts to deliver the product to the boilers,
                    upgrade their systems to burn this product and hire new personnel. [OIG
                    Note: Photos of the Biomass South Point, Ohio facility, as well as
                    information from Ohio EPA officials, and the interview discussion with the
                    COTR, confirm that Biomass had no facilities such as these. Tobacco was
                    simply dumped on the ground or stored in buildings, and no personnel other
                    than the president of Biomass and his advisors were observed at the plant.]
                    Another factor could be profit motivated. Bio-mass energy companies make
                    most of their money from selling the electricity they produce to utility
                    companies. These companies normally have contracts with lumber
                    companies, tree companies and municipalities to dispose of their waste
                    thorough “Waste to Energy” programs. One of the offerors, Biomass Group,
                    LLC deals primarily with lumber and tree companies to dispose of their
                    sawdust from these companies for $8 per ton. Tobacco waste puts out about
                    the same BTU’s per pound as wood waste. The high amount of chlorine in
                    tobacco is a problem to these companies. Chlorine is highly corrosive and has
                    to be filtered from the tobacco when it is burned. Sodium Bicarbonate is used

USDA/OIG-Audit No. 03099-03-Hq                                                                   17
                    to filter this from the tobacco and is very expensive. After off-setting (sic) the
                    additional cost to destroy this tobacco with their (sic) [‘bid offer’ was
                    apparently intended] Biomass group would see this as free fuel instead of
                    having to pay $8 per ton. It will provide them with 10% of their fuel for the
                    year.”

                    OIG reviewed this explanation and noted that (1) Biomass had none of the
                    stated facilities and upgrades, in place or under construction, that might allow
                    them to operate within a contract based on a bid of less than one fourth that of
                    the next technically acceptable bidder; (2) No ready labor force was observed,
                    and therefore it was uncertain whether Biomass would have had to procure
                    and train workers; (3) The COTR and Contracting Officer indicated that they
                    had no support for the fuel cost reduction benefits claimed of 10 percent to
                    Biomass. Without this information, we do not believe the explanation
                    provided by the Contracting Officer for the price spread can be relied upon
                    for decision-making, and it should have been questioned by reviewing
                    officials.

                    Based on the above, we concluded that the technical evaluation not only fails
                    to adequately explain away the substantial difference between the Biomass
                    bid and those of other technically acceptable bidders, but it is also
                    inconsistent with the facts at hand. We saw no evidence in the contract files
                    that this explanation was questioned, or a better explanation offered.

                    Biomass Lacked Legal Authority to Perform

                    Biomass did not have the necessary Ohio-EPA permit to legally perform
                    under the contract. One of the criteria listed above for evaluating potential
                    contractors to destroy the tobacco was: “Are their [meaning the contractor’s]
                    permits in place to burn waste?” The COTR determined after reviewing
                    Biomass’ air permit that they did have the necessary approval to burn the
                    tobacco. This determination was incorrect, and Biomass’ lack of the
                    appropriate permit became the reason why a stop work order effective March
                    14, 2003 was issued by FSA to Biomass on this contract. (This may have
                    been fortunate, as had Biomass been allowed to receive the entire 121,448
                    tons of tobacco under the contract, and been unable to complete its
                    destruction, USDA would have incurred the cost of transporting the tobacco a
                    second time in order to assure that it was destroyed in an EPA approved
                    manner, and would have had to seek recovery from Biomass of the 50 percent
                    of the contract amount it was to receive upon delivery of the tobacco at its
                    facility.) FSA contracting personnel apparently did not understand (1) The
                    type of waste (solid vs. bio-mass) that tobacco was classified as by Ohio EPA,
                    (2) which EPA (national or State) had authority over the Biomass site, and (3)
                    what authorities and permissions were conveyed by Biomass’ Ohio-EPA
                    permit.



USDA/OIG-Audit No. 03099-03-Hq                                                                     18
                    In a memo to FSA’s Acquisition Management Branch on the subject of the
                    “Past Performance Evaluation and Air Permit to Install and Operate”
                    [undated] the COTR stated: “I have a complete copy of the Air Permit (181
                    pages) [the permit is actually 220 pages in length] on file from Ohio
                    Environmental Protection Agency [Ohio-EPA] that allows them to convert
                    waste into waste [sic.] [We presume ‘energy’ was intended]. It really does
                    not mater [sic] what is burned as long as they stay within their emission levels
                    that are released into the air. These emission levels are monitored not only by
                    the company but also by Ohio EPA.”

                    There are several problems with this statement: (1) It is difficult to understand
                    how a non-operational facility can monitor emission levels when there are
                    none; (2) When we asked for access to the EPA permit purported to be on file,
                    we were told that all that was copied and was available was a few pages, and;
                    (3) The Ohio-EPA issued permit limited what may be burned to wood chips
                    and sawdust and is an installation permit, not an operating permit. A
                    February 8, 2002 press release by Ohio EPA stated “This permit allows
                    Biomass to modify seven boilers to burn wood-based fuel to generate
                    electrical power.” The permit, issued on February 7, 2002 is a “Final Permit
                    to Install…” The permit, Signed by the Director, Ohio EPA further states:
                    “Issuance of this permit does not constitute expressed or implied approval or
                    agreement that, if constructed or modified in accordance with the plans
                    included in the application, the above described emission unit(s) of
                    environmental pollutants will operate in compliance with applicable State and
                    Federal laws and regulation, and does not constitute expressed or implied
                    assurance that if constructed or modified in accordance with those plans
                    and specifications the above described emissions unit(s) of pollutants will
                    be granted the necessary permits to operate (air) or NPDES permits as
                    applicable [emphasis added].”

                    Part 10 (b) on page 6 of the permit did allow the install permit holder to
                    temporarily operate for a period of up to one year. The operator was required
                    to apply for the operating permit within 30 days after commencing operation.
                    This clause, however, provided for testing the facility, and was accompanied
                    by strict testing requirements that specified how the plant was to be operated,
                    including what fuels may be burned, in what quantities and mixtures (The
                    Permit to Install, No. 07-00493 issued on February 7, 2002, stateed, on page
                    No. 21, “During the test period, the fuel to be burned is to be 32 percent
                    Mills Pride waste wood and 68 percent sawmill wood waste” (emphasis
                    added), and on page No. 39 stated: “Operational Restrictions 1. These boilers
                    will burn a mixed wood waste fuel consisting of a mixture of Mill’s Pride
                    wood waste and sawmill waste... After the first 12 calendar months of
                    operation, compliance with the annual combined Mill’s Pride wood waste fuel
                    use limitation shall be based upon a rolling 12 months summation of the fuel.”
                    During the first year of operation, the maximum amount of fuel to be burned
                    was set at 291,998 tons in the mixture described above. There was no
                    allowance for any other fuel source, such as tobacco, in the permit.). Ohio-

USDA/OIG-Audit No. 03099-03-Hq                                                                    19
                    EPA officials have stated that, in their opinion, there is no way that someone
                    who has read the permit should be able to construe that the plant is permitted
                    to burn tobacco, and especially not in the quantities required to carry out the
                    tobacco disposal contract. The operating portion of the installation permit is
                    designed strictly to allow the owner of the facility to complete testing and
                    ensure that the newly constructed plant meets design specifications and
                    requirements.

                    On March 27, 2003, Biomass received formal notification from Ohio-EPA
                    that its permit did not authorize it to store and process tobacco, as Ohio-EPA
                    considered this to be a solid waste. An April 18, 2003 letter to Biomass’
                    attorney, further clarified Ohio-EPA’s position by stating that no additional
                    waste materials may be accepted at the South Point location until Biomass
                    applied for and obtained all applicable permits and licenses and the facility
                    had been adequately prepared for operation. On May 30, 2003 Ohio-EPA
                    ordered Biomass to remove and properly dispose of 10,181 tons of illegally
                    stored tobacco at the company’s 80-acre site in South Point by July 29, 2003.
                    A November 17, 2003 letter from Ohio-EPA to Biomass confirmed that all
                    waste tobacco had been removed from the Biomass facility for proper
                    disposal at the time of its October 28, 2003 review.

                    Training

                    The COTR informed us via interview that he had been trained in performing
                    on-site pre-award reviews (although FSA has stated that they do not consider
                    the Biomass site-visit as part of a pre-award review) at some time in the past,
                    but had never actually conducted one prior to this contract. He stated that he
                    had received classroom training only, and added that in retrospect, there were
                    some things he probably should have considered and done differently. In our
                    opinion, additional training, and possibly the assistance of a technical expert
                    in the waste to energy conversion field would have improved the results of
                    FSA’s pre-award review.

                    The need for additional training for the COTR was also evidenced in the
                    contract file in that we noted that the COTR exceeded his authority by
                    informing the contractor, on January 31, 2003, one day after the contract
                    award to Biomass, that “The tobacco and containers [received by the
                    contractor] will be considered 100% totally destroyed once the tobacco and
                    containers have been run the (sic) tub grinder and mixed in with wood dust.
                    Biomass Group would be paid the full amount of (sic) solicitation based upon
                    tons processed per month.” This response by the COTR directly to the
                    contractor would have changed the contract’s statement of work and modified
                    the contract. The statement of work requires that payment to the contractor of
                    only 50 percent per ton be made upon on receipt of the tobacco, and that the
                    tobacco must be burned to produce energy before the remaining 50 percent is
                    paid. Such a contract modification is not permitted by the “Assignment of
                    Contracting Officer’s Agreement.” This was apparently (as evidenced by

USDA/OIG-Audit No. 03099-03-Hq                                                                  20
                    documentation in the contract file) not noticed and corrected until April 2,
                    2003 when Biomass submitted invoices for 100% payment based on the
                    tobacco it had received, as though it had been destroyed. This mistake points
                    out the need for either better training or closer supervision of the COTR by
                    the FSA Contracting Officer.

                    The lack of effective internal FSA procedures regarding the steps to employ
                    in conducting a review, and the necessary elements of information to be
                    collected in order to meet the general standards expressed in FAR 9.104-1
                    lead to the above deficiencies in the pre-award review of Biomass.

Recommendation
No. 1               Establish an effective acquisition planning process that documents the
                    research applied and analysis used to determine the methodology to be
                    followed to obtain needed goods and/or services in a manner that provides the
                    best value for the Government. Establish controls to ensure that personnel
                    assigned to this task have the necessary knowledge and experience to make
                    appropriate selections.

                    Agency Response. (Due to the detailed nature of the agency response,
                    and the need to clearly address each topic therein, we have segmented the
                    agency response and OIG’s position by major topic below.) FSA responded
                    by stating that a documented planning process for acquisition prior to the
                    solicitation of bids or offers is in place and was adhered to in the conduct of
                    the Biomass procurement. An acquisition strategy plan was determined, as
                    evidenced in the contract file. The acquisition plan was completed and
                    approved in accordance with procedures established by the FAR, the AGAR,
                    and FSA procurement policy memorandum (PPM) 94-4.

                    OIG Position. Based on the results in evidence with regard to this contract,
                    FSA’s planning process was inadequate in its content and application to
                    safeguard USDA’s interests. The contract files contained no information in
                    support of the efforts of the COTR in determining how best to dispose of the
                    tobacco. The documents relating to this issue contained in the contract file all
                    appear to have been generated after the COTR had formulated his decision to
                    burn the tobacco to produce energy. We found no discussion or documents
                    that present alternate means of disposal, or assess their merits. Further, our
                    interviews with the COTR and Contracting Officer indicate that such notes or
                    documents were not prepared. The acquisition strategy referred to in the
                    response dates from a point in the process wherein the means of destroying
                    the tobacco has already been determined. We were also informed that the
                    decision to burn the tobacco to produce energy was not mandated by CCC,
                    nor influenced by any USDA Bio-Energy Initiative.




USDA/OIG-Audit No. 03099-03-Hq                                                                   21
                    FSA’s current PPM 95-02 is to “establish thresholds requiring higher level
                    approvals on specific contracting actions.” The PPM states: “A careful
                    review of a contract action can ensure: the action is – in the best interests of
                    the government, - (and) reviewed by the highest level of contracting
                    competence and experience available, commensurate with the
                    value/importance of the procurement. . .” FSA needs to ensure that the
                    detailed work leading up to and supporting the decision as to what
                    methodology is to be employed in responding to a procurement need is
                    documented and maintained so that it is available for subsequent review. This
                    is necessary to apply lessons learned and to identify steps in the process that
                    were inadequately performed so that corrective actions can be applied.

                    Agency Response. FSA responded that technical personnel are tasked
                    with defining their requirements, including determining the most effective
                    methodology, based on their subject matter expertise, market analysis, and the
                    information available to them at the time. Price is not the only factor to be
                    considered in any acquisition and sometimes is not the primary driver of the
                    ultimate purchase decision. The source selection process itself is geared to
                    “best value” which doesn’t necessarily mean lowest price. In fact, in order to
                    further other social or economic goals, the Government often considers price
                    as a less important factor. For example, the socio-economic goals for small
                    business specifically allow a price differential to be paid in order to further
                    the use of small and disadvantaged businesses and the purchase of
                    environmentally correct materials, often at a higher than market price, is
                    encouraged and in some instances, required.

                    OIG Position. In reviewing the contract files, OIG saw no discussion of
                    socio-economic reasons for awarding this contract. In point of fact, FSA’s
                    own Procurement Plan for this solicitation states “Award will be made to the
                    Lowest Price technically acceptable.”

                    Under “Evaluation Factors”, this document states “Award will be made to the
                    vendor that provides the most advantageous proposal to the Government,
                    lowest price technically acceptable. . . .The total cost of Government
                    transportation of the tobacco to the vendor, along with the unit cost per ton
                    will determine price (sic) that is most advantageous to the Government.” The
                    Contracting Officer approved this document on November 26, 2002. No
                    mention was made of socioeconomic issues as having any impact on this
                    valuation. As the source solicitation document noted that only what were
                    described as large businesses responded, the small and disadvantaged
                    business reference did not apply to this contract.

                    Agency Response.           FSA responded that the selected disposal
                    methodology on this procurement was chosen based on the information
                    ascertained using acceptable research techniques, i.e. consultation with
                    experts such as the Environmental Protection Agency (EPA) Headquarters
                    and other agricultural commodity experts. While written documentation of

USDA/OIG-Audit No. 03099-03-Hq                                                                   22
                    this research isn’t necessarily in evidence, there is also no substantiation
                    leading one to believe that adequate investigation did not in fact occur. As
                    evidenced by individual state (sic) EPAs, there is controversy within the
                    environmental community, among technical experts, as to the proper
                    classification of this “waste.” It was therefore, logical to assume EPA
                    Headquarters would be the ultimate experts in this field and their opinion was
                    the driving force behind the selected disposal method. It is unreasonable to
                    expect those outside a technical area to question the expertise and capability
                    of assigned personnel and adequate controls are in place using the existing
                    personnel and acquisition regulations.

                    OIG Position. OIG’s reviews are conducted to meet the standards set by
                    The General Accountability Office (GAO). Government Auditing Standards
                    promulgated by GAO require the gathering of competent evidential support,
                    and non-recorded oral discussions and suppositions of what must have been
                    done do not constitute competent evidential support for FSA’s actions.
                    GAO’s Standards for Internal Control in the Federal Government require that
                    significant transactions and events be clearly documented, and that all
                    documentation and records be properly managed and maintained in order for
                    agency management to support the rational decision-making processes
                    employed in the utilization of federal funds entrusted to its stewardship. Our
                    review did not disclose any documentation of the research techniques
                    employed on this award, and therefore we can garner no insight as to their
                    acceptability.

                    We saw no evidence of consultations with EPA prior to the award, other than
                    a document that argues that an undefined EPA certification requirement for
                    Bio-Mass companies that destroy waste vacates the need for past-performance
                    justification. This same document states that tobacco is considered a solid
                    waste, which is in agreement with the Ohio-EPA position.            Ohio-EPA
                    officials stated that they have had an EPA approved environmental
                    management plan in effect since the mid-1970s, and that as a fully delegated
                    State, any contact with EPA Headquarters by a USDA agency should have
                    resulted in the agency being informed that the State was responsible for solid
                    waste versus bio-mass determinations. Further, the permit reviewed by the
                    COTR for this contract was issued by Ohio-EPA, not EPA Headquarters;
                    therefore, OIG does not agree that it would be logical for FSA to presume that
                    EPA Headquarters was the driving force behind the selected disposal method.

                    FSA states: “It is unreasonable to expect those outside a technical area to
                    question the expertise and capability of assigned personnel (sic) and adequate
                    controls are in place using the existing personnel and acquisition regulations.”
                    OIG does not accept that the actions of anyone involved in the utilization and
                    expenditure of taxpayer funds is beyond questioning. As auditors, such
                    questions are a routine and necessary part of the conduct of our reviews. We
                    believe the results of this procurement are sufficient to show that, at least in


USDA/OIG-Audit No. 03099-03-Hq                                                                   23
                    this case, controls in place at FSA were not adequate to protect the
                    Government’s interests.

Recommendation
No. 2               Establish formal, written guidelines and requirements for the conduct of past
                    performance and pre-award reviews. The guidelines should ensure that
                    prospective contractors have demonstrated either satisfactory prior
                    performance of the scope of work of a prospective contract, or can
                    demonstrate that they have the legal, technical, and financial capability to
                    timely complete the contract.

                     Agency Response. FSA responded that the FAR and AGAR provide
                     formal guidance on the conduct of pre-award and past performance reviews.
                     Pre-award reviews are rare and only performed when determined necessary
                     by a Contracting Officer. Formal, detailed, written guidelines can’t be
                     implemented to address every unique aspect of the acquisition or other
                     technical processes. That’s why the law, regulations, and the FAR are
                     subject to interpretation and allow for the judgment of the technical experts.
                     Any guideline written to address pre-award reviews would be obsolete by
                     the next time one might possibly be required. Also, much of a pre-award
                     review, by its nature, is specific to the company and/or industry involved so
                     any guidance provided would be generic in nature and already covered by
                     the FAR.

                     OIG Position. The guidance in the FAR and AGAR are broad and general
                     in nature, and thus do not provide the level of guidance needed by the COTR
                     and Contracting Officer in the conduct of the past performance assessment
                     and the site survey. This was demonstrated by the problems encountered in
                     the review of Biomass, as is demonstrated in the Finding above. Formal
                     detailed guidelines may not be able to address every unique aspect of an
                     acquisition or technical process, but the significant aspects of the
                     information needed to properly assess a contractor’s responsibility can
                     certainly be addressed for every procurement. In OIG’s opinion, the
                     resources required to create such guidance are much less than those that
                     would be expended in sending COTRs out to perform site surveys without
                     adequate guidance, as in this case, where the survey failed to disclose
                     important information that was readily available and could have prevented
                     the awarding of this contract to a contractor who was unable to perform.
                     We disagree that the guidance would be obsolete by the time of the next
                     review; as such guidance should be continually modified to keep it current
                     and relevant.

                     Agency Response. FSA responded “As stated in the findings, FAR
                     9.106-1 states that pre-award reviews are only required when information on
                     hand or readily available, including information from commercial sources,
                     isn’t sufficient to determine responsibility. In this particular acquisition, no
                     formal pre-award survey was required, nor performed. The findings

USDA/OIG-Audit No. 03099-03-Hq                                                                    24
                     presented clearly show a failure to differentiate between pre-award survey
                     and past-performance.”

                     FSA states that the information on hand and readily available was sufficient
                     to determine responsibility. They maintain that (1) The Dun & Bradstreet
                     report had no adverse information, i.e. debts, late payments, and specifically
                     showed the company’s status as a corporation doing business since 1997
                     with 50 or more employees. (2) The List of Parties Excluded from Federal
                     Procurement and Nonprocurement Programs was reviewed, as stated in the
                     findings and documented in the contract file as a positive affirmation in the
                     award recommendation. (3) Additionally, a site visit was performed by the
                     COTR and positive statements regarding the firm’s viability were received
                     from two separate knowledgeable parties, as well as the contractor itself.
                     FAR 9.105-1 specifically states that in making a determination of
                     responsibility the Contracting Officer must consider relevant past
                     performance information, using sources such as, the prospective contractor,
                     suppliers, subcontractors and customers of the prospective contractor.

                     FSA notes that FAR 9.103 states that an affirmative determination of
                     responsibility is required and that in the absence of information, clearly
                     indicating that the contractor is responsible, then the Contracting Officer
                     must determine the contractor as nonresponsible. They contend that there
                     was no absence of information, and that there was adequate positive
                     information to determine the contractor responsible. They also maintain that
                     the adverse information cited in OIG’s audit findings was all obtained after
                     the fact.

                     OIG Position. We strongly disagree with FSA’s conclusion that for this
                     particular acquisition, no formal pre-award survey was required because they
                     had sufficient information on hand to determine that the contractor was
                     responsible. As pointed-out in the Finding above, none of the information
                     FSA had collected and documented was sufficient to provide an affirmative
                     determination that Biomass was responsible. FSA lacked information as to:
                     (1) the contractor’s past experience and success in operating a Biomass
                     facility, (2) the contractor’s financial ability to complete the construction
                     necessary to operate the proposed Biomass plant, (3) the likelihood that the
                     plant would be operational in time to complete the contract, and (4)
                     Biomass’ legal ability to complete the contract.

                     Additional information was available to show that Biomass was not
                     responsible, but FSA did not attempt to collect this information, and
                     apparently was unaware that it existed. FSA had so little information
                     regarding Biomass Group’s ability to successfully complete the contract, that
                     a pre-award review, as described in FAR 9.105-1, should have been
                     performed.




USDA/OIG-Audit No. 03099-03-Hq                                                                  25
                     In its response, FSA points to the Dun and Bradstreet report as a basis for
                     concluding that Biomass has apparently been successfully operating a power
                     plant since 1997 with over 50 employees.           OIG disagrees with this
                     assessment, as the evidence we assembled and presented in the Finding
                     above, which was publicly available at the time FSA was preparing to award
                     the contract, supports the conclusion that Biomass Group, LLC is comprised
                     of one individual who has never operated a power plant.

                     FSA also responded that they reviewed The List of Parties Excluded from
                     Federal Procurement and Nonprocurement Programs, and that they view this
                     as a positive affirmation for judging Biomass to be responsible. OIG
                     strongly disagrees, as the fact that Biomass was not excluded from Federal
                     Procurement merely indicates that no Federal entity has had a supported
                     cause for excluding Biomass. This may simply be the result of Biomass
                     having never been awarded a Federal contract, because Biomass’ plant had
                     never been in operation since the inception of the company.

                     FSA also points out in its response that a site visit was performed by the
                     COTR and positive statements regarding the firm’s viability were received
                     from two separate knowledgeable parties, as well as the contractor itself.
                     Again, as we discussed at length in this report, the two individuals from
                     whom statements were received regarding the firm and its president were
                     described by the COTR as advisors to Biomass. Statements from such
                     sources must be discounted, as they are not independent of the contractor,
                     and therefore, their responses are likely to engender a bias in favor of the
                     contractor.     We also noted that neither statement spoke to Biomass’
                     viability, one commented only on Biomass’ president’s capability, and the
                     other merely confirmed that an association existed between an energy
                     advisory firm and Biomass.

                     FSA’s response also maintains that all of the adverse information presented
                     in the report’s findings is “after the fact information” unavailable to the
                     contracting officials at the time the contract was awarded. We don’t accept
                     the admonition that the adverse information cited in the findings was all
                     obtained after the date of the award of the contract. Had FSA acted to
                     conduct a thorough pre-award review, the information disclosed in this
                     report’s Findings would have been available. For example, had FSA
                     exercised sufficient due diligence in reviewing the Ohio-EPA Air permit,
                     information showing that the contractor was not authorized to accept or burn
                     tobacco, and was therefore not responsible, was readily obtainable, and
                     should have been acted upon. Similarly, the information quoted in the
                     Finding from the Biomass president’s attestation to the Ohio Public Utilities
                     Commission that Biomass had never operated a power plant prior to the
                     Ohio site was also readily available over the internet.




USDA/OIG-Audit No. 03099-03-Hq                                                                 26
Recommendation
No. 3               Establish internal controls, such as review criteria, for contracting officers
                    responsible for determining whether completed pre-award or past
                    performance reviews have been competently performed, and whether the
                    conclusions and recommendations of the reviewer are adequately supported.

                     Agency Response. FSA responded: “Established FSA policy PPM 95-2
                     already requires that pre-award reviews of both solicitations and awards be
                     completed. The Contracting Officer, the head of the Special Projects
                     Section, and an established review committee consisting of the head of the
                     Policy and Oversight Section and the Branch head are tasked with review of
                     these actions. As evidenced in the contract file, reviews were completed for
                     both issuance of the solicitation and the award of the resultant contract. The
                     review comments in the contract file address the incorrect statements in the
                     findings concerning the “pre-award review” requirement and it’s (sic)
                     subsequent reversal as well as the statements that Biomass’s (sic)
                     “unreasonably low bid” was accepted without question.”

                     “The established review policy and procedures in place review all aspects of
                     both solicitations and awards, not just pre-award review or past performance,
                     to ensure compliance with all procurement rules and regulations as well as
                     the soundness of all decisions. Based on the information readily available at
                     the time, in accordance with the FAR, business judgement (sic), and in
                     consideration of the needs of the Agency, the contract was properly
                     reviewed and awarded.”

                     OIG Position. Although PPM 95-2 requires that pre-award review of both
                     solicitations and awards be completed, it does not present adequate criteria
                     to ensure that the reviews are sufficiently detailed and comprehensive to
                     safeguard USDA’s funds devoted to contracts. A thorough review, prior to
                     the issuance of the solicitation, should have shown that the most cost
                     effective method to dispose of the tobacco was not selected. Further, a
                     properly conducted review of the past performance of the contractor,
                     combined with an adequate set of criteria for the site-survey and supervisory
                     review by the Contracting Officer, should have found Biomass to be
                     nonresponsible as disclosed in the Finding above.

                     FSA expressed concern over OIG’s Finding that the Biomass Bid was
                     accepted without question. We understand that FSA maintains that the bid
                     was subjected to review. We noted that the Contracting Officer apparently
                     reviewed the COTR’s memo of January 10, 2003, containing the explanation
                     of the price spread, as the Contracting Officer prepared a memo to the file,
                     using similar wording, on January 15, 2003. However, we saw no concern
                     expressed in the contract files over the unsupported and illogical nature of
                     the explanation offered as to why Biomass can bid to complete the contract
                     for less than one fourth the cost the other technically acceptable bidders.
                     The Finding above discusses this issue in detail.

USDA/OIG-Audit No. 03099-03-Hq                                                                  27
                     FSA states that based on the information available at the time, the contract
                     was properly reviewed and awarded. OIG disagrees, as much of the
                     information available at the time of the award was not considered by FSA in
                     determining whether the method of disposal of the tobacco was in the best
                     interest of the Government and whether the contractor was responsible. The
                     information that OIG collected and discussed in the Finding relating to the
                     responsibility of the contractor was available prior to the date the award was
                     signed. It was either not requested by FSA, or in some cases, such as with
                     the Ohio-EPA permit, the information was reviewed, but not understood.
                     The ultimate inability of the contractor to perform, and the fact that the
                     ultimate disposal of the tobacco in landfills was nearly $1 million less costly
                     that the contract with Biomass, supports our position that FSA’s review
                     processes need to be strengthened.

Recommendation
No. 4               Ensure that personnel conducting pre-award or past performance reviews
                    have sufficient training and technical expertise to perform the review and
                    render a competent supported determination. Where necessary, engage the
                    services of technical experts to support those staff personnel conducting the
                    review.

                    Agency Response. FSA responded that controls are established to ensure
                    that personnel assigned have the required technical ability. The assigned
                    personnel met or exceeded all required experience, education, and training
                    requirements of USDA DR 5001.1. FSA stated that both technical and
                    acquisition personnel have the training required by the USDA. The pace of
                    acquisition rarely allows the time for training on specific topical areas when
                    needed, i.e., just-in-time. As stated in the findings, the COTR had received
                    training on pre-award surveys. As previously stated in this response, pre-
                    award surveys are rarely done; the decision to conduct a pre-award survey is
                    made after receipt and evaluation of proposals, immediately before an award.
                    The acquisition process would have to be cancelled due to the unreasonable
                    time frame necessary for receipt of training. Congressional time constraints
                    in this particular acquisition didn’t allow for any significant schedule slippage
                    and putting the acquisition process on hold while someone sets up and attends
                    training would be unacceptable.

                    The services of technical experts are utilized to support staff personnel in
                    many areas. There still has to be a sufficient level of internal expertise to not
                    only determine the adequacy of the expertise being hired but to monitor
                    performance and make the final decision on the adequacy of their work.
                    Also, as is the case with many things, there are often conflicting, and perfectly
                    valid, expert opinions. Environmental issues in particular are an area of
                    significant differing opinions on technical issues. So, while hiring an expert
                    may seem an easy solution, it doesn’t resolve the basic problem as one can
                    literally hire an expert to support any position.

USDA/OIG-Audit No. 03099-03-Hq                                                                    28
                    OIG Position. DR 5001-1 “Acquisition Workforce Training, Delegation,
                    and Tracking System” is a broad regulation, with a purpose of ensuring that
                    procedures are in place to ensure that USDA’s acquisition workforce is
                    provided with training to achieve career level competencies and a path for
                    effective career development. It does not equip contracting personnel with
                    the specific skills needed for this procurement, such as the ability to review a
                    proposed contractor’s construction plans and make an assessment as to
                    whether the proposed contractor can achieve time frames for performance of a
                    contract, provide guidance on how to interpret financial statements, read and
                    comprehend EPA Air permits, or adequately respond to unanticipated issues
                    that might arise in the conduct of a site survey. Such knowledge, needed to
                    determine a contractor’s responsibility, may require the assistance of hired
                    technical experts or the accompaniment of other more experienced
                    contracting personnel. In this case, although personnel assigned may have
                    taken all of the courses required by the DR 5001-1, their performance
                    demonstrated that additional competency is required; particularly with regard
                    to understanding what information is necessary to render an affirmative
                    judgment that a contractor is responsible, and to identify when a pre-award
                    survey is needed.

                    FSA maintains that to correct the problems identified above, the acquisition
                    process would have to be cancelled due to the unreasonable time frame
                    necessary for receipt of training. They add that Congressional time
                    constraints in this particular acquisition didn’t allow for any significant
                    schedule slippage and putting the acquisition process on hold while someone
                    sets up and attends training would be unacceptable. CCC acquired title to the
                    tobacco on May 1, 2001, yet this contract was not awarded until nearly 21
                    months later, on January 30, 2003. Therefore, it doesn’t appear that time was
                    of the essence in awarding this contract. FSA appears to be taking the
                    position that because of insufficient time and resources, some mistakes in the
                    award of contracts, such as with Biomass, should be expected, and apparently
                    tolerated. OIG does not agree that lack of time and resources presents a
                    reasonable excuse for failing to properly carry out a contracting officer’s
                    fiduciary responsibilities. If such conditions exist, they should be brought to
                    agency management’s attention so that they may be addressed, rather than
                    placing Government resources at risk and accepting diminished performance
                    as endemic to the contracting process.

                    We also disagree with FSA’s contention that the practice of hiring experts is
                    basically flawed because “one can literally hire an expert to support any
                    position.”     An expert in biomass plant construction and operation for
                    example could have been hired by FSA to assist the COTR in the Biomass
                    site review to assess key elements, such as the practicality of the site for the
                    construction of the plant or whether Biomass Group had competent effective
                    plans for the construction of the plant, and whether the construction could be
                    accomplished quickly enough to meet the conditions of the contract statement

USDA/OIG-Audit No. 03099-03-Hq                                                                   29
                    of work. In so long as Biomass was not paying the expert’s fee and had no
                    personal or professional relationships with the expert, the expert’s opinion,
                    accompanied by supporting documentation and analysis could be reasonably
                    relied upon in making a decision to award the contract.

                    We based our conclusion that additional training was needed on the apparent
                    conduct of the pre-award survey, and the resultant determination by the
                    COTR and the Contracting Officer that the contractor was “more than
                    capable” of performing the contract. The errors and omissions that we noted
                    in the conduct of the site review and subsequent review of the site report by
                    the Contracting Officer are detailed in the Finding above. We buttress our
                    position through comments made by the COTR in interview that the
                    individual had received classroom training on pre-award site reviews, but
                    never actually conducted one. We also question the level of training and due
                    diligence evidenced through the Contracting Officer’s review of the COTR’s
                    site report. The reviewer did not question the lack of key information in the
                    report, or the COTR’s unsupported positive affirmation of the ability of the
                    contractor to perform.

Recommendation
No. 5               Take appropriate administrative action against the individuals who were
                    responsible for the award and administration of this contract.

                     Agency Response. FSA responded that if by this statement the OIG is
                    recommending adverse action, we strongly disagree. The OIG has not
                    demonstrated that the actions taken were in violation of any law, regulations
                    or required procedure. Actions taken were timely and done in the best
                    interests of the Government. The actions taken in responding to each adverse
                    event protected the best interest of the Government and demonstrated a
                    professionalism that should be lauded not punished.

                    OIG Position. We believe that the information contained in this report
                    clearly identifies obvious and egregious errors and omissions in the conduct
                    of this award that placed $5 million in Government funds at unnecessary risk.
                    These mistakes were allowed to occur because actions taken to determine the
                    most appropriate method to use to destroy the tobacco were not documented
                    and therefore, there exists no evidence as to whether management was
                    presented with a supportable analysis of the alternative methods that may be
                    employed and the costs, risks and benefits of each, and because due diligence
                    in the performance of contracting responsibilities as required by FAR 1.606-2
                    was not applied. The Contracting Officer reached an unsupported conclusion
                    that Biomass Group, LLC. (which now appears to consist of one individual
                    who has no record of operating a biomass facility and has no existing
                    operational facility) was affirmatively responsible to carryout the tobacco
                    destruction contract. By failing to ensure and document that a competent and
                    thorough review was performed prior to making the award of the contract to
                    Biomass Group, and by accepting incomplete and unsubstantiated information

USDA/OIG-Audit No. 03099-03-Hq                                                                30
                    as support of past performance, and current ability to perform, the contracting
                    personnel placed USDA funds in jeopardy and failed to adequately carry out
                    their fiduciary responsibility to the Department. Such inattention to the proper
                    exercise of responsibility merits corrective administrative actions.




USDA/OIG-Audit No. 03099-03-Hq                                                                   31
Scope and Methodology
                    The audit was conducted at the FSA Contracting Office in Washington, DC.
                    Our audit consisted of a review of the contracting process undertaken by FSA
                    to accomplish the disposal of surplus FY 1999 tobacco. As such, we
                    examined the actions taken with regard to the research and decision process
                    employed to determine how to dispose of the excess tobacco, the solicitation
                    of bids by potential contractors, technical review of the bid packages
                    received, past performance and on-site review at the Biomass South Point,
                    Ohio facility, to determine whether the proposed contractor was responsible,
                    award of the contract to Biomass, monitoring of Biomass’ activities under the
                    contract, contract termination, and the ultimate disposal of 1999 crop year
                    surplus tobacco.

                    We reviewed activities that took place over the period of May 1, 2001 through
                    December 19, 2003. We interviewed FSA officials, spoke over the telephone
                    and corresponded by e-mail with Biomass’ president and officials with the
                    Ohio-EPA and relied on official opinions and decisions issued by Ohio-EPA.
                    We also obtained information by telephone and e-mail from the Kentucky and
                    Ohio State Utilities Commissions, and Kentucky State EPA. We reviewed
                    written documentation including all of the available files on this specific
                    contract in the possession of FSA, documents from the Ohio-EPA, and
                    information from other sources such as financial reporting services and the
                    local South Point, Ohio news services. Our audit fieldwork was initially
                    performed between November 13, 2003 and February 27, 2004; additional
                    audit evidence was compiled between May 13, 2004 and July 21, 2004,
                    subsequent to the exit conference, to address concerns that were raised at that
                    time.




USDA/OIG-Audit No. 03099-03-Hq                                                                  32
Exhibit A
Photographs of the Biomass Group’s South Point, Ohio Facility




The following photographs were provided by the Ohio State Environmental Protection Agency. They
show piles of rotting tobacco and cardboard boxes containing tobacco stored in the open at the
Biomass Group, LLC South Point, Ohio site. The photographs also show that the plant is not operating
and overgrown with weeds, and that no construction activity is in evidence as of July 12, 2004.




July 12, 2004, photograph of the inoperative boiler at the Biomass South Point, Ohio facility.




USDA/OIG-Audit No. 03099-03-Hq                                                                   33
July 12, 2004 photograph of the Biomass bunker, overgrown with weeds, where tobacco was once
stored, with the boiler plant shown in the prior page in the background. We note that there appears to
be no sign of activity and that there was no smoke coming from the boiler stack.




USDA/OIG-Audit No. 03099-03-Hq                                                                       34
July 9, 2003 photograph of the Biomass bunker site. The brown substance in the background is stored
tobacco, with broken cardboard containers to the left of the photograph




USDA/OIG-Audit No. 03099-03-Hq                                                                   35
March 12, 2003 photograph of the receiving depot at the Biomass South Point, Ohio facility, with
cardboard containers of tobacco stored in the open.




USDA/OIG-Audit No. 03099-03-Hq                                                                     36
March 12, 2003 photograph of a pile of decaying tobacco stored in the open on a fly ash pond at the
Biomass South Point, Ohio site. The tobacco was smothering vegetation planted on the fly ash pond as
part of an EPA Superfund effort to clean up the contaminated site.




USDA/OIG-Audit No. 03099-03-Hq                                                                   37
March 12, 2003 close-up photograph of the pile of tobacco stored on the fly ash pond at the Biomass
site.




USDA/OIG-Audit No. 03099-03-Hq                                                                        38
Exhibit B
Response From the Farm Service Agency




USDA/OIG-Audit No. 03099-03-Hq          39
USDA/OIG-Audit No. 03099-03-Hq   40
USDA/OIG-Audit No. 03099-03-Hq   41
USDA/OIG-Audit No. 03099-03-Hq   42
USDA/OIG-Audit No. 03099-03-Hq   43
USDA/OIG-Audit No. 03099-03-Hq   44
USDA/OIG-Audit No. 03099-03-Hq   45
USDA/OIG-Audit No. 03099-03-Hq   46
USDA/OIG-Audit No. 03099-03-Hq   47
